                                                      IG-01-022




AUDIT
                           INFORMATION TECHNOLOGY SECURITY
REPORT                                PLANNING

                                     March 30, 2001




                              OFFICE OF INSPECTOR
                                   GENERAL
National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

         Assistant Inspector General for Auditing
         Code W
         NASA Headquarters
         Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington,
DC 20026. The identity of each writer and caller can be kept confidential, upon request, to the
extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

ASIS               American Society for Industrial Security
GAO                General Accounting Office
GPRA               Government Performance and Results Act
IT                 Information Technology
NPD                NASA Policy Directive
NPG                NASA Procedures and Guidelines
OMB                Office of Management and Budget
PCIE               President's Council on Integrity and Efficiency
W                                                                                             March 30, 2001


TO:              A/Administrator

FROM:            W/Inspector General

SUBJECT: INFORMATION: Information Technology Security Planning
          Report Number IG-01-022


The NASA Office of Inspector General has completed an audit of System Information
Technology Security Planning. We found that NASA has established adequate processes to
ensure information technology (IT) security is considered as a part of the Agency's strategic
information resource program planning. NASA has established many new IT security policies in
response to the General Accounting Office (GAO) report number GAO/AIMD-99-47,
"Information Security, Many NASA Mission-Critical Systems Face Serious Risks," May
1999,1 and NASA's internal "Information Technology Security Program Review," August
1998.2 The new policies are adequate, but substantial work remains to fully implement them.
However, the limited metrics in the fiscal year 2001 performance plan do not provide an
adequate assessment of NASA's IT security program. [Withheld per FOIA exemptions 2 & 5,
5 U.S.C. §552 (b)(2) & (5).




                                                                                               ]




1
    See Appendix B a summary of the GAO report and Appendix C for the open recommendations.
2
    See Appendix C for a summary of the NASA internal IT security review.
                                                                                                                     2

Background

On October 30, 2000, the President signed into law the fiscal year 2001 Defense Authorization
Act (Public Law 106-398) including Title X, subtitle G, "Government Information Security
Reform" (The Security Act). The Security Act provides a comprehensive framework for
establishing and ensuring the effectiveness of controls over information resources that support
Federal operations and assets and a mechanism for improved oversight of Federal agency
information security programs. The Government Performance and Results Act of 1993
(GPRA) requires Federal agencies to set goals, targets,3 and indicators to gauge performance
and report annually to the Congress on agency success in meeting those goals. One of NASA's
targets for fiscal year 2001 is to enhance IT security through a reduction of system vulnerabilities
at all NASA Centers. [Withheld per FOIA exemptions 2 & 5, 5 U.S.C. §552 (b)(2) & (5).
                                 ]

Recommendations

We recommended that the NASA Chief Information Officer include a description of the time
and resources necessary to implement the Agency's information security program in NASA's
annual performance plans and develop additional GPRA IT security metrics. These actions will
provide the Congress with the information required by the Security Act and improve NASA's
ability to measure the performance of its IT security program. We also recommended that
NASA select vulnerabilities that ensure the data for the current IT systems vulnerability
performance indicator accurately reflects the Agency's IT security risk. Increasing the number
of vulnerabilities tested by selecting more recently discovered vulnerabilities will better measure
the risk to NASA's IT systems. Finally, we recommended that NASA describe the extent of IT
security vulnerability testing in the annual GPRA report. This explanation will enable the
Congress to better understand the metric currently used to measure reductions in IT system
vulnerability.

Management's Response

NASA concurred with three of the recommendations and partially concurred with the
recommendation to select vulnerabilities that ensure the data for the current IT systems
vulnerability performance indicator accurately reflects NASA's IT security risk. NASA did not
fully concur due primarily to concerns about the amount of additional testing for vulnerabilities
that might be required. Nonetheless, NASA has already changed the metric and requested that
the Centers scan for an updated list of vulnerabilities and is planning to update the metric


3
 Target is the term NASA uses in the Performance Plan for those measures or metrics that the Agency established to
accomplish (and measure) the individual goals and objectives.
                                                                                               3

periodically. In addition, the Chief Information Officer has agreed to work collaboratively with
my office on the amount of testing required.

Details on the status of the recommendations are in the finding section of the report.


[original signed by]
Roberta L. Gross




Enclosure

Final Report on Audit of Information Technology
 Security Planning
              FINAL REPORT
INFORMATION TECHNOLOGY SECURITY PLANNING
W                                                                       March 30, 2001


TO:             AO/Chief Information Officer

FROM:           Assistant Inspector General for Auditing

SUBJECT:        Final Report on the Audit of Information Technology Security Planning
                Assignment Number A0003701
                Report Number IG-01-022


The subject final report is provided for your information and use. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your responses has been incorporated
into the body of the report. The recommendations will remain open for reporting purposes until
corrective action is completed. Please notify us when action has been completed on the
recommendations, including the extent of testing performed to ensure corrective actions are
effective.

If you have questions concerning the report please contact Mr. Gregory B. Melson, Program
Director, Information Assurance Audits, at (202) 358-2588; Mr. Ernest L. Willard, Program
Manager, Information Assurance Audits; at (650) 604-2676, or Mr James W. Geith, Auditor-
in-Charge, at (301) 286-7943. We appreciate the courtesies extended to the audit staff. The
final report distribution is in Appendix G.


[original signed by]
Russell A. Rau
                                                2

Enclosure

cc:
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
KSC/AA/Director, John F. Kennedy Space Center
Contents

Executive Summary, i

Introduction, 1

Finding and Recommendations , 2

     Finding. NASA's Information System Vulnerability Metric, 2

Appendix A - Objectives, Scope, and Methodology, 11

Appendix B - Summary of Prior Audit Coverage, 13

Appendix C - Information Technology Security Recommendations, 16

Appendix D - Other Matters of Interest, 19

Appendix E - Common Threats, 22

Appendix F - Management's Response, 27

Appendix G - Report Distribution, 30
                              NASA Office of Inspector General

IG-01-022                                                                                     March 30, 2001
 A0003701
                       Information Technology Security Planning

                                          Executive Summary

Background. Successful accomplishment of NASA's mission depends heavily on automated
information resources. As technology evolves, these resources face increasing vulnerability to
external and internal attacks. The single most important factor in prompting the establishment of
an effective IT security program is a general recognition and understanding among the
organization's most senior executives of the enormous risks to business operations associated
with relying on automated and highly interconnected systems.

Objectives. The overall audit objective was to determine whether NASA had established and
implemented effective policies and procedures for IT security planning in accordance with
Office of Management and Budget (OMB) Circular A-130, "Management of Federal
Information Resources," dated February 8, 1996. Specifically, we determined whether the
Agency:

•   established effective IT security planning processes as an integral part of its strategic
    information resources management program and

•   developed adequate IT system vulnerability metrics for reporting under GPRA.

The originally announced audit objectives included determining whether NASA had established
and implemented effective security plans for general-support systems,4 major applications,5 and
publicly accessible Web sites.6 We covered this objective in audit report number IG-00-055,
"System Information Technology Security Planning," dated September 28, 2000, which is
summarized in Appendix B.

We also reviewed management actions on the recommendations from NASA's internal
"Information Technology Security Program Review," August 1998 and GAO report


4
  OMB Circular A-130 defines a general-support system as "an interconnected set of information resources under the
same direct management control, which shares common functionality. A system normally includes hardware, software,
information, data, applications, communications, and people."
5
  OMB Circular A-130 defines a major application as "an application that requires special attention to security due to
the risk and magnitude of the harm resulting from the loss, misuse, or unauthorized access to or modification of the
information in the application."
6
  A publicly accessible Web site is one designed to be viewed by the general public. These Web sites are advertised to
the public, such as www.nasa.gov, or contain links to other NASA public Web sites.
number GAO/AIMD-99-47, "Information Security, Many NASA Mission-Critical Systems
Face Serious Risks," May 1999. Details on our objectives, scope, and methodology are in
Appendix A.

Results of Audit. NASA has established adequate processes to ensure IT security is
considered as a part of the Agency's strategic information resource program planning. NASA
has completed corrective actions for 7 of the 11 recommendations from NASA's 1998 internal
IT security review and 8 of the 9 recommendations from the GAO report that affect IT security
planning. Many of these recommendations relate to implementing new policies as shown in
Appendix C. Overall, the new policies that NASA established are adequate, but substantial
work remains to fully implement them.

However, NASA's current policies for scanning its computer systems for a limited number of
vulnerabilities do not result in an adequate assessment of the Agency's IT system vulnerabilities.
Specifically, the limited metrics in the fiscal year 2001 performance plan do not provide an
adequate assessment of NASA's IT security program. As a result, the IT security risks and
metrics that NASA reports to the Congress may understate NASA's IT vulnerabilities and
provide undue assurance on the integrity, availability, and confidentially of information.

Other Matters of Interest. [Withheld per FOIA exemptions 2 & 5, 5 U.S.C. §552 (b)(2) &
(5). 7

8




                                                                                                                      ]
(Appendix D).

Recommendations. We recommend that the NASA Chief Information Officer (1) include a
description of the time and resources necessary to implement the Agency's information security
program in the Agency annual performance plans, (2) develop additional GPRA IT security
metrics, (3) select vulnerabilities that more accurately reflect NASA's IT security risk, and (4)
describe the extent of IT security vulnerability testing in the GPRA report.




7
  The seven Centers that had designated their financial management systems as "special management attention" systems
were Ames Research Center, Goddard Space Flight Center, John H. Glenn Research Center at Lewis Field, Lyndon B.
Johnson Space Center, the Jet Propulsion Laboratory, Langley Research Center, and George C. Marshall Space Flight
Center.
8
  "Special management attention" is a NASA term applied to information systems that require increased oversight due
to the risk and magnitude of harm that would result from the loss, misuse, unauthorized access to or modification of the
data in the system.


                                                           ii
Management's Response. Management concurred with all but one recommendation.
Management partially concurred with the recommendation to select vulnerabilities that more
accurately reflect NASA's IT security risk. However, NASA has already changed the metric
and has asked the Centers to scan for an updated list of vulnerabilities. Further, the Chief
Information Officer will coordinate with the Inspector General's Office on the amount of testing
for vulnerabilities.

Evaluation of Management's Response. Management's proposed actions are responsive to
the recommendations. The recommendations are resolved but will remain undispositioned and
open until agreed-to corrective actions are completed.




                                               iii
Introduction

NASA Policy Directive 1000.1a, "NASA Strategic Plan 2000," defines the vision, mission, and
fundamental questions of science and research that provide the foundation of the Agency’s
goals. The Strategic Plan describes the five Strategic Enterprises that manage the programs and
activities to implement NASA's mission, answer the fundamental questions, and provide service
to identified customers. The Strategic Enterprises are: Space Science, Earth Science, Biological
and Physical Research, Human Exploration and Development of Space, and Aerospace
Technology. The Strategic Plan also defines the Crosscutting Processes that support the
Strategic Enterprises. The Crosscutting Processes are Manage Strategically, Provide
Aerospace Products and Capabilities, Generate Knowledge, and Communicate Knowledge.
One of the objectives of Manage Strategically is to "Enhance the security, efficiency, and
support provided by our information technology resources."

To achieve security in computing, NASA Procedures and Guidelines (NPG) 2810.1, "Security
of Information Technology," dated August 26, 1999, requires that NASA maintain the following
three components of IT resources:

               a.   Integrity--The ability to ensure that information, the applications
                    processing that information, the information technology systems used to
                    run that information, and the hardware configuration, connectivity, and the
                    status of privilege settings cannot be altered during processing, storage or
                    transmission.

               b.   Availability--The ability to ensure that data, applications, and systems are
                    accessible when and where needed.

               c.   Confidentiality--The ability to ensure that information is disclosed only to
                    those who have a valid need to possess it.
Finding and Recommendations

Finding. N A S A ' s I n f o r m a t i o n S y s t e m V u l n e r a b i l i t y M e t r i c

NASA's annual performance plan limits discussion of IT security programs to one performance
target. In addition, NASA's current practices for computer system vulnerability scanning do not
result in an accurate assessment of NASA's IT system vulnerabilities. [Withheld per FOIA
exemptions 2 & 5, 5 U.S.C. §552 (b)(2) & (5).




                                    ]

Government Performance and Results Act


Congress enacted the GPRA to improve the efficiency of all Federal agencies. GPRA's specific
goals are to:

    •    Improve Federal program management, effectiveness, and public accountability.

    •    Improve congressional decision making on where to commit the Nation’s financial and
         human resources.

    •    Improve citizen confidence in Government performance.

The GPRA directed Executive Branch agencies to develop a customer-focused strategic plan
that aligns activities with concrete missions and goals. GPRA directed agencies to manage and
measure results to justify congressional appropriations and authorizations. Federal agencies are
required to prepare and submit an annual Performance Plan to the Director of the Office of
Management and Budget and the Congress. The plan should establish objective and
measurable performance goals, establish performance indicators to be used in measuring
relevant outputs or other results, provide a basis for comparing actual results with the
established goals, and describe the means to be used to verify and validate measured values.
Six months after the end of each fiscal year, agencies report on the degree of success in
achieving the goals and evaluation measures defined in the strategic and performance plans.

Government Information Security Reform

The Security Act codifies the existing requirements of OMB Circular A-130, Appendix III,
"Security of Federal Automated Information Resources," and requires agencies to:

•   incorporate security into the life cycle of agency information systems,


                                                      2
•    develop an agencywide information security program, and

•    conduct annual reviews of their information security programs and report the results to
     OMB for consolidation into a report to the Congress.

The Security Act also requires each agency's Chief Information Officer to include a description
of the time periods and resources that are necessary to implement the information security
program in the annual performance plan required by GPRA.

NASA's Fiscal Year 2001 Performance Plan


The NASA 2001 Performance Plan does not contain a description of the time periods
and resources that are necessary to implement the information security program as
required by the Security Act because NASA issued the plan before the Security Act
became law. Nevertheless, such information provides basic parameters contemplated
under GPRA9 and thus should be reported in the Performance Plan.

NASA's coverage of its IT security program in the fiscal year 2001 Performance Plan is limited
to a target to improve IT infrastructure and enhance IT security as follows:

                    Target: Improve IT infrastructure service delivery to provide increased
                    capability and efficiency while maintaining a customer rating of “satisfactory,”
                    and enhance IT security through a reduction of system vulnerabilities
                    across all NASA centers, [emphasis added] emphasizing IT security
                    awareness training for all NASA personnel.10


To measure the reduction of system vulnerabilities, NASA chose a performance indicator that
uses the results of IT system vulnerability scans. However, this indicator measures NASA's
vulnerabilities to only a limited number of threats. The indicator does not provide a complete
picture of NASA's IT security programs.

System Vulnerabilities

The National Institute of Standards and Technology issued a handbook, "An Introduction to
Computer Security," Special Publication 800-12, to provide guidance to computer security
personnel.11 The handbook states:


9
   OMB requires an agency to briefly describe the operational processes, skills, and technology and the human, capital,
information, or other resources required to meet the performance goals.
10
   NASA Inspector General Report G-00-019, "Assessment of Information Technology Security Training and
Development and Other Human Resource Considerations, " February 6, 2001, discusses a review of NASA's IT
security awareness and training metrics.
11
    In the Computer Security Act of 1987, the Congress assigned the responsibility to prepare standards and guidelines
for the security of sensitive Federal systems to the National Institute of Standards and Technology.


                                                           3
                    Computer systems are vulnerable to many threats that can inflict various types
                    of damage resulting in significant losses. This damage can range from errors
                    harming database integrity to fires destroying entire computer centers. Losses
                    can stem, for example, from the actions of supposedly trusted employees
                    defrauding a system, from outside hackers, or from careless data entry clerks.
                    Precision in estimating computer security-related losses is not possible because
                    many losses are never discovered, and others are "swept under the carpet" to
                    avoid unfavorable publicity. The effects of various threats vary considerably:
                    some affect the confidentiality or integrity of data while others affect the
                    availability of a system. . . .

                    To control the risks of operating an information system, managers and users
                    need to know the vulnerabilities of the system and the threats that may exploit
                    them. Knowledge of the threat environment allows the system manager to
                    implement the most cost-effective security measures. In some cases, managers
                    may find it more cost-effective to simply tolerate the expected losses. Such
                    decisions should be based on the results of a risk analysis.

Common threats include:

     •    errors and omissions by data entry clerks and system users;

     •    computer fraud and theft by insiders or outsiders;

     •    employee sabotage;

     •    loss of physical and infrastructure support;

     •    hackers;

     •    industrial, economic, and foreign government espionage;

     •    malicious code such as viruses, worms,12 and Trojan horses;13 and

     •    threats to personal privacy.

See Appendix E for an extract of the handbook's Chapter 4, "Common Threats: A Brief
Overview."




12
  A worm is a special type of virus that can replicate itself and use memory, but cannot attach itself to other programs.
13
  A Trojan horse is a destructive program that masquerades as a benign application. Unlike viruses, Trojan horses do
not replicate themselves.


                                                            4
NASA's Quarterly Vulnerability Scans

To demonstrate that NASA is enhancing IT security through the reduction of system
vulnerabilities, NASA is scanning its computer systems14 quarterly [Withheld per FOIA
exemptions 2 & 5, 5 U.S.C. §552 (b)(2) & (5).] and collecting the data for its FY 2001
Performance Report, which is due March 31, 2002. Each NASA Center performs the
quarterly scans and reports the data to the Principal Center for IT Security at Ames Research
Center (Ames). The Principal Center for IT Security accumulates the data and presents it to the
Congress in an annual performance report.

NASA managers use the scanning results to make improvements to their IT systems. After the
Center performs the quarterly scans, NASA managers take actions to correct the vulnerabilities.
Subsequently, the managers can ask for a rescan of their IT systems to determine whether they
were successful in fixing the problem. This ongoing process results in a continual improvement
of the security of the IT systems, particularly for the [Withheld per FOIA exemptions 2 & 5, 5
U.S.C. §552 (b)(2) & (5).]

Scanning Software Limitations


NASA does not use scanning software to detect many types of vulnerabilities. NASA's
Principal Center for IT Security, in conjunction with the Centers Chief Information Officers,
decided to use the a software package 15 that NASA owned when it started to scan computer
systems. The [Withheld per FOIA exemptions 2 & 5, 5 U.S.C. §552 (b)(2) & (5).] software
performs scheduled or event-driven probes of network communication services, operating
systems, routers, e-mail and Web servers, firewalls, and applications, thereby identifying system
weaknesses that could be exploited by intruders to gain access to the network. Hackers and
persons conducting industrial, economic, and foreign government espionage often exploit these
vulnerabilities. [Withheld per FOIA exemptions 2 & 5, 5 U.S.C. §552 (b)(2) & (5).
]

[Paragraph withheld per FOIA exemptions 2 & 5, 5 U.S.C. §552 (b)(2) & (5).

16




14
     [Withheld per FOIA exemptions 2 & 5, 5 U.S.C. §552 (b)(2) & (5).




                    ]
15
   [Withheld per FOIA exemptions 2 & 5, 5 U.S.C. §552 (b)(2) & (5).
                      ]
16
   UNIX is an immensely powerful and complex operating system that provides multitasking and multiuser capabilities
on a single computer.


                                                          5
    ]




6
NASA Uses Only Part of the [Withheld per FOIA exemptions 2 & 5, 5 U.S.C. §552 (b)(2)
& (5).] Software Capabilities

NASA's Information Technology Security Manager, in conjunction with the Center Chief
Information Officers, decided to use an [Withheld per FOIA exemptions 2 & 5, 5 U.S.C. §552
(b)(2) & (5).] software package 17 as a tool for gathering metric information for GPRA
reporting. [Withheld per FOIA exemptions 2 & 5, 5 U.S.C. §552 (b)(2) & (5).
18
       ] The Agency established the baseline because of concern that too much time would be
expended checking for nonexistent problems as a result of vulnerability tests that report the
existence of a vulnerability when none exists. [Withheld per FOIA exemptions 2 & 5, 5 U.S.C.
§552 (b)(2) & (5).
                                                                                              .19]

However, the [Withheld per FOIA exemptions 2 & 5, 5 U.S.C. §552 (b)(2) & (5).] software
provides more capability than NASA utilizes. As of November 30, 2000, the [Withheld per
FOIA exemptions 2 & 5, 5 U.S.C. §552 (b)(2) & (5).] software database contained tests for
802 vulnerabilities, and the capability to write custom code to scan for vulnerabilities that the
software does not address in its current database. Further, [Withheld per FOIA exemptions 2
& 5, 5 U.S.C. §552 (b)(2) & (5).] has grouped its 802 vulnerabilities into 38 categories that
represent various types of vulnerabilities. [Withheld per FOIA exemptions 2 & 5, 5 U.S.C.
§552 (b)(2) & (5).                         ]

New Vulnerabilities Are Discovered Daily

Hackers constantly find new ways to exploit systems. Therefore, [Withheld per FOIA
exemptions 2 & 5, 5 U.S.C. §552 (b)(2) & (5).] continually updates its database to include
additional vulnerability checks for newly identified exploits of networks and data. For example,
from August 2000 through December 2000, [Withheld per FOIA exemptions 2 & 5, 5 U.S.C.
§552 (b)(2) & (5).] issued 5 updates to its software that added 75 additional vulnerability
checks. [Withheld per FOIA exemptions 2 & 5, 5 U.S.C. §552 (b)(2) & (5).] considers 40 of
those 75 new vulnerabilities to be high risk. [Withheld per FOIA exemptions 2 & 5, 5 U.S.C.
§552 (b)(2) & (5).                       ]

Annual Security Act Reviews

The Security Act requires that Agency program officials, in consultation with the Chief
Information Officer, review each Agencywide information security program at least annually.

17
   [Withheld per FOIA exemptions 2 & 5, 5 U.S.C. §552 (b)(2) & (5).                             ]
18
   In addition to the quarterly scans for the annual performance report, each Center may scan for any vulnerabilities it
chooses for its internal purposes; some Centers are doing this.
19
   At the time we performed the field work on vulnerability scanning (August to November 2000), NASA was still
developing its scanning procedures and learning how to use the software. We did not test the scanning data after NASA
revised its procedures.


                                                           7
The annual review should include reviews of all programs included in the Agencywide program.
To promote consistent reviews across the Government, the Chief Information Officer Council
had the National Institute of Standards and Technology prepare the "Federal Information
Technology Security Assessment Framework," dated November 28, 2000. Agencies can use
the Framework coupled with the National Institute of Standards and Technology Self-
Assessment Questionnaire20 to assess the status of security controls for individual systems (that
is, general-support systems, major applications, mission-critical systems) or a logically related
group of systems that support operational programs.

Conclusion

NASA will report data to the Congress that could understate NASA's actual vulnerability to
misuse, theft, or destruction of Government IT resources and provide undue assurance on the
effectiveness of NASA's IT security program. We believe that the Congress' intent for GPRA
and the annual performance reporting requirement is that the annual reports adequately and
accurately state the results of any metrics used to measure performance against established
targets and goals in the annual performance plans. Therefore, NASA should revise the current
metric to reflect a more appropriate scan of significant and current vulnerability checks and
make clear to the Congress that a specific, limited set of vulnerabilities are being reported.
NASA should also indicate to the Congress how the Agency determined the appropriateness of
the metrics. NASA should add information to the annual performance plan to show the time
and resources required to implement its Agencywide IT security program.

The Security Act requirement to include information on the Agency's information security
program in the annual performance plan and the requirement to submit an annual evaluation on
the Agency's information security program indicate that the Congress wants comprehensive
information on the Agency's IT security program. Therefore, NASA should expand coverage
of the Agency's information security program in the annual performance plan.

Recommendations, Management's Response, and Evaluation of
Response

The NASA Chief Information Officer should:

1. Include in the Agency annual performance plans a description of the time and
    resources that are necessary to implement the Agency's information security
    program as contemplated by GPRA and as required by the Government
    Information Security Reform, starting with the fiscal year 2003 plan. Also include
    in the annual performance plan the metrics for measuring the implementation of the
    Agency's information security program.

20
 The National Institute of Standards and Technology will issue the Self-Assessment Questionnaire in 2001 as a
National Institute of Standards and Technology Special Publication.


                                                         8
Management's Response. Concur. The Chief Information Officer already has a requirement
in the IT portion of the NASA FY 2003 Program Operating Plan Call for Centers to identify
the resources needed to implement the Agency's IT Security Program. The Chief Information
Officer will seek to modify the FY 2003 annual performance plan to include the schedule and
requirements mandated by the Government Information Security Reform Act. The Chief
Information Officer will include metrics for implementation of the IT security plan and will
baseline those requirements in FY 2002. The complete text of management's response is in
Appendix F.

Evaluation of Management's Response. Management's proposed actions are responsive to
the recommendation. The recommendation is resolved but will remain undispositioned and
open until agreed-to corrective actions are completed.

2. Develop additional GPRA IT security metrics to cover the requirements of OMB
   Circular A-130, Appendix III.

Management's Response. Concur. NASA already gathers metrics on the four requirements
of OMB Circular A-130, Appendix III, which address assigned responsibility, security plans,
authorization to process, and periodic review. The Chief Information Officer will seek to add
an additional IT Security GPRA metric, beginning in 2003, that will track the review of security
controls for "special management attention"21 systems (see Appendix F).

Evaluation of Management's Response. Management's proposed actions are responsive to
the recommendation. The recommendation is resolved but will remain undispositioned and
open until agreed-to corrective actions are completed.

3. Select vulnerabilities that ensure the data for the current IT systems vulnerability
    performance indicator accurately reflects NASA's IT security risk.

Management's Response. Partially concur. NASA agrees with our intent that the Chief
Information Officer modify the metric to better reflect current vulnerabilities. When the metric
was established in 1999, scanning tools were less mature than they are today. With the benefit
of experience, NASA has already requested that the Centers change the metric to scan for an
updated list of vulnerabilities and is planning to update the metric periodically. NASA is
concerned about our use of the word "ensure." Exhaustive testing for every vulnerability is not
cost-effective and yields false positives. It is not currently possible to "ensure" that the
performance indicator accurately reflects NASA's IT security risk. NASA believes that the
current vulnerability testing reflects a balance of effectiveness and cost; however, the Chief
Information Officer will work collaboratively with the Inspector General's office to retain proper
balance between effective and exhaustive vulnerability testing (see Appendix F).

21
     See footnote 8.


                                                9
Evaluation of Management's Response. Management's proposed actions are responsive to
the intent of the recommendation. We did not intend to imply that exhaustive testing for every
possible vulnerability was necessary. We were concerned that the list of vulnerabilities had
become outdated and should be revised to include new vulnerabilities that hackers are using to
attack NASA computer systems. The recommendation is resolved but will remain
undispositioned and open until agreed-to corrective actions are completed.

4. Describe the extent of vulnerability testing used to calculate the IT security metric
   in NASA's annual performance report to Congress.

Management's Response. Concur. The FY 2002 Performance Plan has been modified to
more clearly state that only a specified set of vulnerabilities is included in the metric and that the
scanned vulnerabilities may change from quarter to quarter (see Appendix F).

Evaluation of Management's Response. Management's proposed actions are responsive to
the intent of the recommendation. The recommendation is resolved but will remain
undispositioned and open until we are able to review the FY 2002 Performance Plan and the
FY 2001 report to Congress.




                                                  10
                 Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective was to determine whether NASA has established and implemented
effective policies and procedures for information technology (IT) security planning in
accordance with Office of Management and Budget (OMB) Circular A-130. 22 Specifically,
we determined whether the Agency has:

•    established effective IT security planning processes as an integral part of its strategic
     information resources management program and

•    developed adequate IT system vulnerability metrics for reporting under the Government
     Performance and Results Act (GPRA).

The originally announced audit objectives included determining whether NASA had established
and implemented effective security plans for general-support systems, major applications, and
publicly accessible Web sites. We covered this objective in audit report number IG-00-055,
"System Information Technology Security Planning,” September 28, 2000. The report is
summarized in Appendix B.

We also reviewed the actions NASA management has taken on the recommendations from
NASA's internal "Information Technology Security Program Review," and the General
Accounting Office (GAO) report number GAO/AIMD-99-47, "Information Security, Many
NASA Mission-Critical Systems Face Serious Risks." A summary of NASA's internal review
is in Appendix C. A summary of the GAO report is in Appendix B.

Scope and Methodology

We performed work at NASA Headquarters, Ames Research Center (Ames), Goddard Space
Flight Center (Goddard), John H. Glenn Research Center at Lewis Field (Glenn), Lyndon B.
Johnson Space Center (Johnson), John F. Kennedy Space Center (Kennedy), the Jet
Propulsion Laboratory (JPL), Langley Research Center (Langley), and George C. Marshall
Space Flight Center (Marshall). We reviewed NASA and Center directives, documents, plans,
and reports related to the implementation of Federal laws and regulations and NASA policies
on IT security, information resource management, strategic planning, and measuring
performance. We interviewed NASA and contractor


22
  The audit announcement stated that we would determine whether the Agency has implemented an adequate strategic
information resources management plan that incorporates the system security plans for general-support systems and
major applications. We cancelled this objective because the underlying requirement has been deleted by the Information
Technology Reform Act of 1996.



                                                         11
                                                                                    Appendix A

personnel on IT security planning. We also reviewed the management actions taken in response
to the GAO report on NASA's IT security and NASA's internal IT security review.

We also interviewed NASA and contractor personnel on the development of the GPRA metric
for reducing IT system vulnerabilities across all NASA Centers. We examined the capability of
the quarterly scans to identify different types of vulnerabilities. We reviewed a sample of the
quarterly IT system scan results at Johnson, Marshall, and Goddard by testing the procedures
that NASA has developed for collecting information that the Agency will use to report whether
it has met its goal of reducing IT system vulnerabilities.

Management Controls Reviewed

We reviewed NASA policies and procedures on strategic planning to determine whether IT
security was included in the process. We also reviewed management controls relative to the
fiscal year 2001 Performance Plan target for reducing IT system vulnerability. We reviewed the
procedures for conducting the quarterly scans and reporting the results to the Principal Center
for IT Security for consolidation and incorporation into the annual performance report for fiscal
year 2001.

We determined that controls needed to be strengthened to ensure that vulnerability scanning of
NASA's IT systems is appropriate as discussed in the Finding section of the report.

Audit Field Work

We performed field work from August 2000 through January 2001 at NASA Headquarters,
Ames, Goddard, Glenn, Johnson, the Jet Propulsion Laboratory, Kennedy, Langley, and
Marshall. We performed the audit in accordance with generally accepted government auditing
standards.




                                               12
                   Appendix B. Summary of Prior Audit Coverage

The NASA Office of Inspector General and the General Accounting Office (GAO) issued
reports relating to information technology (IT) security planning. The reports are summarized
below. (See www.hq.nasa.gov/office/oig/hq/issuedaudits.html for copies of the NASA OIG
reports.)

NASA Office of Inspector General

"System Information Technology Security Planning," Report Number, IG-00-055,
September 28, 2000. NASA had not adequately complied with the Computer Security Act of
1987 and Office of Management and Budget (OMB) Circular A-130. Specifically, NASA
managers did not assign sufficient priority to IT security. NASA Headquarters and the Centers
had no IT security plans for 17 of 38 "special management attention" systems and for 13 of 30
publicly accessible Web site host computers in our samples. The Jet Propulsion Laboratory
had no IT security plans for its IT systems. In addition, there were no security plans,
contingency plans, or risk assessments for five elements of a major information system. Initial
and periodic personnel screening requirements in Agency policy did not comply with OMB
Circular A-130 requirements. Therefore, NASA's IT systems were at increased risk, and the
effectiveness of NASA's IT security program was degraded. We recommended that:

     •   the NASA Chief Information Officer create an inventory containing the status of IT
         security plans and authorizations to use the systems.

     •   the Centers and the Jet Propulsion Laboratory submit quarterly status reports to the
         NASA Chief Information Officer until there is a current security plan and authorization
         to process for each IT system or system element.

     •   the Associate Administrator for Headquarters Operations, Associate Administrator for
         Space Science, Director, John H. Glenn Research Center at Lewis Field, Director,
         Goddard Space Flight Center, and Director, Langley Research Center report the
         Federal noncompliance conditions to the Agency's Internal Control Council23 as
         significant areas of concern.

     •   the Director, Goddard Space Flight Center expedite the development and
         implementation of IT security plans for one of NASA's major IT systems.

     •   the NASA Chief Information Officer expand policy requirements for personnel
         screenings to comply with OMB Circular A-130.

23
   The Internal Control Council makes recommendations to the NASA Administrator on issues for NASA's annual
statement of assurance to the President and Congress, pursuant to the Federal Managers' Financial Integrity Act and for
incorporation into NASA's annual Accountability Report.


                                                          13
                                                                                                  Appendix B

NASA management fully concurred with 7 of the 10 recommendations and has completed
action on 3 of them. The Centers and the Jet Propulsion Laboratory are submitting quarterly
status reports on the status of their IT security plans to the NASA Chief Information Officer.
The Director, Glenn Research Center at Lewis Field and the Director, Goddard Space Flight
Center reported their respective Center's Federal noncompliance conditions as a significant area
of concern.

NASA management partially concurred with three recommendations that the Associate
Administrator for Headquarters Operations, Associate Administrator for Space Science, and
the Director, Langley Research Center report the Federal noncompliance conditions to the
Agency's Internal Control Council as significant areas of concern. We determined NASA
management was not fully responsive to these recommendations and asked NASA management
to reconsider its position.

General Accounting Office

"Information Security, Many NASA Mission-Critical Systems Face Serious Risks,"
Report Number GAO/AIMD-99-47, May 1999. NASA was not effectively and
consistently managing IT security throughout the agency. NASA's IT security program did not
include key elements of a comprehensive IT security management program. Specifically, the
GAO reported that NASA:

                •   did not effectively assess risks or evaluate needs. One hundred thirty-five
                    of the 155 mission-critical systems that we reviewed did not meet all of
                    NASA's requirements for risk assessments.

                •   did not effectively implement policies and controls. NASA's guidance did
                    not specify what information can be posted on public World Wide Web
                    sites nor how mission-critical systems should be protected from well-
                    known Internet threats.

                •   was not monitoring policy compliance or the effectiveness of controls.
                    NASA had not conducted an agency-wide review of IT security at its 10
                    field centers since 1991. Furthermore, the security of 60 percent of the
                    systems that we reviewed had not been independently audited.


                •   was not providing required computer security training. NASA had no
                    structured security training curriculum.

                •   did not centrally coordinate responses to security incidents. NASA field
                    centers were not reporting incidents to the NASA Automated Systems
                    Incident Response Capability.




                                                     14
Appendix B

              NASA management is aware that its IT security program needs improvement.
              Accordingly, in May 1998 NASA initiated a special review of its IT security
              program. The review identified a number of shortcomings that were consistent
              with our findings. Although NASA is planning to address these shortcomings,
              at the time of our review, few of the special review's recommendations had been
              implemented.


NASA management concurred with all of the GAO recommendations. See Appendix C for a
summary of NASA's corrective actions.




                                                    15
     Appendix C. Information Technology Security Recommendations

We also reviewed the actions NASA management has taken on the recommendations from
NASA's 1998 internal "Information Technology Security Program Review" and the General
Accounting Office (GAO) report number GAO/AIMD-99-47, "Information Security, Many
NASA Mission-Critical Systems Face Serious Risks."

NASA's 1998 Internal Information Technology Security Program Review

In May 1998, the NASA Acting Deputy Administrator commissioned a special top-to-bottom
review of NASA's information technology (IT) security program to determine whether NASA
has the appropriate organization, policies, technologies, authorities, skills, training, and
awareness to provide appropriate levels of security to assure mission performance. The review
team made 33 recommendations. The recommendations included changing NASA's
organization and policies, ensuring IT security plans are developed and executed, establishing IT
security and risk management training programs, certifying system and network administrators,
and improving incident response reporting. Eleven of the recommendations pertained to IT
security planning. According to NASA management, the Agency has completed corrective
action on 7 of the 11 recommendations. Table C-1 contains the four open recommendations
and the status of each recommendation.

                                   Table C-1. Open Recommendations

                Recommendation                                                       Status
The Chief Information Officer, Principal                        Corrective actions included issuing NASA
Centers,24 and Expert Centers25 should review                   Policy Directive (NPD) 2810.1, "Security of
and clarify their roles, responsibilities, and                  Information Technology," on
commitments for their assigned IT security                      October 1, 1998, and NASA Policy and
missions. The Chief Information Officer, the                    Guidelines (NPG) 2810.1 (same title as the
appropriate Institutional Program Offices, and                  NPD). Some of the Principal Centers and
Center Directors should document their roles,                   Expert Centers have established
responsibilities, and commitments to ensure                     Memorandums of Understanding. The
that the Centers can accomplish their                           remaining actions are to complete two
assignments.                                                    Memoranda of Understanding between
                                                                Principal Centers and Expert Centers.
                                                                Although the Memorandums of Understanding
                                                                are not completed, management stated that the
                                                                Expert Centers are performing their required
                                                                tasks.

24
   The NASA Chief Information Officer established Principal Centers to lead or oversee projects and initiatives in
specialized IT areas.
25
   Expert Centers represent exceptional Agency capabilities in certain areas of science, engineering, or technology.


                                                           16
Appendix C

                        Table C-1. Open Recommendations (Cont.)

                Recommendation                                               Status
Revise NPG 7120.5A, " NASA Program and                 The Chief Information Officer and the
Project Management Processes and                       Associate Administrator have identified the
Requirements," dated April 3, 1998, to include         changes that will be included in the next
requirements that program and project                  release of NPG 7120.5A. The Office of the
managers include security planning in the basic        Chief Engineer is revising the entire NPG.
design of new programs. This must include
risk management and assessments, security
plans for IT systems processing classified and
sensitive information and security for command
and control communications. The revision
should include identification of classified or
sensitive information in any form and
awareness and training measures to be taken
for each program.

The Associate Administrator for Management             Changes have been made to many of the more
Systems and Facilities and the Chief                   important directives, such as NPD 2810.1,
Information Officer should review all current          "Security of Information Technology"; and
NASA directives pertaining to IT security to           NPG 1620.1, " Security Procedures and
ensure that all necessary facets of IT security        Guidelines." Other NASA directives are being
are covered and that there are crisply defined         reviewed during the normal review cycle.
responsibilities in each case. These
responsibilities should also define and assign
responsibility for NASA's external interfaces
with law enforcement agencies in the case of
preliminary criminal investigation.

The Office of the Chief Engineer should                The Chief Information Officer and the
modify NPG 7120.5A to incorporate a                    Associate Administrator for Security
requirement for security risk management               Management and Safeguards have completed
throughout the life cycle of every NASA                identifying the additional changes that will be
program and project, that specifically                 included in the next release of NPG 7120.5A.
addresses and documents IT security, the               The Office of the Chief Engineer is revising the
security of classified information, and the            entire NPG.
protection of command, control, and
communications.




                                                  17
                                                                                 Appendix C

GAO Report

GAO Report Number GAO/AIMD-99-47, "Information Security, Many NASA Mission-
Critical Systems Face Serious Risks," May 1999, contained 12 recommendations. Nine of the
recommendations affected IT security planning. NASA has completed action on eight of the
nine recommendations. The remaining recommendation is to develop and issue guidance that
specifies what information is appropriate for posting on public World Wide Web sites and that
distinguishes this information from information that is sensitive and should be more closely
controlled. The NASA Chief Information Officer has prepared draft guidance that the NASA
Office of General Counsel is reviewing.




                                              18
                           Appendix D. Other Matters of Interest

Federal Policies on Financial Management Systems

Office of Management and Budget (OMB) Circular A-127, "Financial Management Systems,"
requires that financial management systems be in place to process and record financial events
effectively and efficiently and to provide complete, timely, reliable, and consistent information for
decision makers and the public. This financial management information enables agencies to
carry out their fiduciary responsibilities; deter fraud, waste, and abuse of Federal Government
resources; and facilitate efficient and effective delivery of programs through relating financial
consequences to program performance.

OMB Circular A-130, " Management of Federal Information Resources," Paragraph 8.a.1.
states that agencies shall:

                    (i) Consider the effects of their actions on the privacy rights of individuals, and
                    ensure that appropriate legal and technical safeguards are implemented;

                    (j) Record, preserve, and make accessible sufficient information to ensure the
                    management and accountability of agency programs, and to protect the legal and
                    financial rights of the Federal Government.


The Joint Financial Management Improvement Program directive, "Framework for Federal
Financial Management Systems," January 1995, states:

                    Computer systems, databases, and communication networks are key
                    components of the information technology infrastructure upon which financial
                    management systems depend. Computer security is an important element of
                    internal control; it is essential for the operations of systems and the accuracy of
                    the financial data collected, stored, and reported.


NASA Information Technology Security Policy

NASA Procedures and Guidelines (NPG) 2810.1, "Security of Information Technology,"
requires that the Center Chief Information Officers, Center Information Technology (IT)
Security Managers, Organization Computer Security Officials, and line managers identify any
systems that require "special management attention."26 Once systems are identified as requiring
"special management attention," the NPG requires that senior NASA managers take a more
active role in the systems' IT security programs.




26
   "Special management attention" is a NASA term applied to information systems that require increased oversight due
to the risk and magnitude of harm that would result from the loss, misuse, unauthorized access to or modification of the
data in the system.


                                                            19
                                                                                  Appendix D

The NPG also describes some specific systems that require "special management attention."
These systems include:

           •   Major Applications - Those applications that require special attention due to the
               risk and magnitude of harm that would result from the loss, misuse, or
               unauthorized access to or modification of the information in the application.

           •   Major Information Systems - Systems that the NASA Chief Information Officer
               has designated as "major information systems" for reporting in accordance with
               OMB Circular A-11, "Preparing and Submitting Budget Estimates," July 19,
               2000.

           •   Mission-Critical Systems - Systems that provide Agencywide support, such as
               wide area networks, Agencywide business functions, command and control of
               space systems, Agencywide consolidated IT resources, or IT resources that
               affect life support.

           •   NASA Resource Protection Facility - IT resources critical to a facility or
               operation designated under the NASA Resource Protection program by the
               cognizant program office.

           •   Center-Designated Systems - Other IT systems designated by the Center
               Director or Center Chief Information Officer.

[Paragraph withheld per FOIA exemptions 2 & 5, 5 U.S.C. §552 (b)(2) & (5).




                                       ]

[Paragraph withheld per FOIA exemptions 2 & 5, 5 U.S.C. §552 (b)(2) & (5).




                               ]




                                              20
Appendix D

[Paragraphs withheld per FOIA exemptions 2 & 5, 5 U.S.C. §552 (b)(2) & (5).




              ]




                                           21
                            Appendix E. Common Threats

The National Institute of Standards and Technology issued the handbook, "An Introduction to
Computer Security," Special Publication 800-12, to provide guidance to computer security
personnel. Chapter 4 of the Handbook "Common Threats: A Brief Overview," describes some
of the most prevalent threats:

               Computer systems are vulnerable to many threats that can inflict various types
               of damage resulting in significant losses. This damage can range from errors
               harming database integrity to fires destroying entire computer centers. Losses
               can stem, for example, from the actions of supposedly trusted employees
               defrauding a system, from outside hackers, or from careless data entry clerks.
               Precision in estimating computer security-related losses is not possible because
               many losses are never discovered, and others are "swept under the carpet" to
               avoid unfavorable publicity. The effects of various threats varies considerably:
               some affect the confidentiality or integrity of data while others affect the
               availability of a system.

               This chapter presents a broad view of the risky environment in which systems
               operate today. The threats and associated losses presented in this chapter were
               selected based on their prevalence and significance in the current computing
               environment and their expected growth. This list is not exhaustive, and some
               threats may combine elements from more than one area. This overview of
               many of today's common threats may prove useful to organizations studying
               their own threat environments; however, the perspective of this chapter is very
               broad. Thus, threats against particular systems could be quite different from
               those discussed here.

               To control the risks of operating an information system, managers and users
               need to know the vulnerabilities of the system and the threats that may exploit
               them. Knowledge of the threat environment allows the system manager to
               implement the most cost-effective security measures. In some cases, managers
               may find it more cost-effective to simply tolerate the expected losses. Such
               decisions should be based on the results of a risk analysis. . . .

               4.1 Errors and Omissions

               Errors and omissions are an important threat to data and system integrity.
               These errors are caused not only by data entry clerks processing hundreds of
               transactions per day, but also by all types of users who create and edit data.
               Many programs, especially those designed by users for personal computers,
               lack quality control measures. However, even the most sophisticated
               programs cannot




                                                     22
Appendix E

             detect all types of input errors or omissions. A sound awareness and training
             program can help an organization reduce the number and severity of errors and
             omissions.

             . . . Errors can occur during all phases of the systems life cycle. A long-term
             survey of computer-related economic losses conducted by Robert Courtney, a
             computer security consultant and former member of the Computer System
             Security and Privacy Advisory Board, found that 65 percent of losses to
             organizations were the result of errors and omissions. This figure was relatively
             consistent between both private and public sector organizations.

             Programming and development errors, often called "bugs," can range in severity
             from benign to catastrophic. In a 1989 study for the House Committee on
             Science, Space and Technology, entitled Bugs in the Program, the staff of the
             Subcommittee on Investigations and Oversight summarized the scope and
             severity of this problem in terms of government systems as follows:

                       As expenditures grow, so do concerns about the reliability,
                       cost and accuracy of ever-larger and more complex software
                       systems. These concerns are heightened as computers
                       perform more critical tasks, where mistakes can cause
                       financial turmoil, accidents, or in extreme cases, death.

             Since the study's publication, the software industry has changed considerably,
             with measurable improvements in software quality. Yet software "horror
             stories" still abound . . . .

             Installation and maintenance errors are another source of security problems.
             For example, an audit by the President's Council for Integrity and Efficiency
             (PCIE) in 1988 found that every one of the ten mainframe computer sites
             studied had installation and maintenance errors that introduced significant
             security vulnerabilities.

             4.2 Fraud and Theft

             Computer systems can be exploited for both fraud and theft both by
             "automating" traditional methods of fraud and by using new methods. For
             example, individuals may use a computer to skim small amounts of money from
             a large number of financial accounts, assuming that small discrepancies may not
             be investigated. Financial systems are not the only ones at risk. Systems that
             control access to any resource are targets (e.g., time and attendance systems,
             inventory systems, school grading systems, and long-distance telephone
             systems).




                                                   23
                                                                                     Appendix E


Computer fraud and theft can be committed by insiders or outsiders. Insiders
(i.e., authorized users of a system) are responsible for the majority of fraud. A
1993 InformationWeek/Ernst and Young study found that 90 percent of Chief
Information Officers viewed employees "who do not need to know"
information as threats. The U.S. Department of Justice's Computer Crime Unit
contends that "insiders constitute the greatest threat to computer systems." . . .

4.3 Employee Sabotage

Employees are most familiar with their employer's computers and applications,
including knowing what actions might cause the most damage, mischief, or
sabotage. The downsizing of organizations in both the public and private
sectors has created a group of individuals with organizational knowledge, who
may retain potential system access (e.g., if system accounts are not deleted in a
timely manner). The number of incidents of employee sabotage is believed to
be much smaller than the instances of theft, but the cost of such incidents can
be quite high. . . .

4.4 Loss of Physical and Infrastructure Support

The loss of supporting infrastructure includes power failures (outages, spikes,
and brownouts), loss of communications, water outages and leaks, sewer
problems, lack of transportation services, fire, flood, civil unrest, and strikes.
These losses include such dramatic events as the explosion at the World Trade
Center and the Chicago tunnel flood, as well as more common events, such as
broken water pipes. Many of these issues are covered in Chapter 15. A loss of
infrastructure often results in system downtime, sometimes in unexpected
ways. For example, employees may not be able to get to work during a winter
storm, although the computer system may be functional.

4.5 Malicious Hackers

The term malicious hackers, sometimes called crackers, refers to those who
break into computers without authorization. They can include both outsiders
and insiders. Much of the rise of hacker activity is often attributed to increases
in connectivity in both government and industry. One 1992 study of a
particular Internet site (i.e., one computer system) found that hackers
attempted to break in at least once every other day.

The hacker threat should be considered in terms of past and potential future
damage. Although current losses due to hacker attacks are significantly smaller
than losses due to insider theft and sabotage, the hacker problem is widespread
and serious. . . .




                                       24
Appendix E

             4.6 Industrial Espionage

             Industrial espionage is the act of gathering proprietary data from private
             companies or the government for the purpose of aiding another company(ies).
             Industrial espionage can be perpetrated either by companies seeking to improve
             their competitive advantage or by governments seeking to aid their domestic
             industries. Foreign industrial espionage carried out by a government is often
             referred to as economic espionage. Since information is processed and stored on
             computer systems, computer security can help protect against such threats; it
             can do little, however, to reduce the threat of authorized employees selling that
             information.

             Industrial espionage is on the rise. A 1992 study sponsored by the American
             Society for Industrial Security (ASIS) found that proprietary business
             information theft had increased 260 percent since 1985. The data indicated 30
             percent of the reported losses in 1991 and 1992 had foreign involvement. The
             study also found that 58 percent of thefts were perpetrated by current or
             former employees. . . .

             Within the area of economic espionage, the Central Intelligence Agency has
             stated that the main objective is obtaining information related to technology, but
             that information on U.S. Government policy deliberations concerning foreign
             affairs and information on commodities, interest rates, and other economic
             factors is also a target. The Federal Bureau of Investigation concurs that
             technology-related information is the main target, but also lists corporate
             proprietary information, such as negotiating positions and other contracting
             data, as a target.

             4.7 Malicious Code

             Malicious code refers to viruses, worms, Trojan horses, logic bombs, and other
             "uninvited" software. Sometimes mistakenly associated only with personal
             computers, malicious code can attack other platforms.

             A 1993 study of viruses found that while the number of known viruses is
             increasing exponentially, the number of virus incidents is not. The study
             concluded that viruses are becoming more prevalent, but only "gradually." . . .

             4.8 Foreign Government Espionage

             In some instances, threats posed by foreign government intelligence services
             may be present. In addition to possible economic espionage, foreign intelligence
             services may target unclassified systems to further their intelligence missions.
             Some unclassified information that may be of interest includes travel plans of
             senior officials, civil defense and emergency preparedness, manufacturing
             technologies, satellite data,




                                                    25
                                                                                   Appendix E

personnel and payroll data, and law enforcement, investigative, and security
files. Guidance should be sought from the cognizant security office regarding
such threats.

4.9 Threats to Personal Privacy

The accumulation of vast amounts of electronic information about individuals
by governments, credit bureaus, and private companies, combined with the
ability of computers to monitor, process, and aggregate large amounts of
information about individuals have created a threat to individual privacy. The
possibility that all of this information and technology may be able to be linked
together has arisen as a specter of the modern information age. This is often
referred to as "Big Brother." To guard against such intrusion, Congress has
enacted legislation, over the years, such as the Privacy Act of 1974 and the
Computer Matching and Privacy Protection Act of 1988, which defines the
boundaries of the legitimate uses of personal information collected by the
government.

The threat to personal privacy arises from many sources. In several cases
federal and state employees have sold personal information to private
investigators or other "information brokers."




                                      26
Appendix F. Management's Response




               27
     Appendix F




28
Appendix F




             29
                         Appendix G. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
AI/Associate Deputy Administrator
AO/Chief Information Officer
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
C/Associate Administrator for Headquarters Operations
G/General Counsel
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Acting Associate Administrator for Legislative Affairs
Z/Acting Associate Administrator for Policy and Plans

NASA Centers

Director, Ames Research Center
 Chief Information Officer, Ames Research Center
Director, Dryden Flight Research Center
 Chief Information Officer, Dryden Flight Research Center
Director, John H. Glenn Research Center at Lewis Field
 Chief Information Officer, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
 Chief Information Officer, Goddard Space Flight Center
Director, Jet Propulsion Laboratory
 Chief Information Officer, Jet Propulsion Laboratory
Acting Director, Lyndon B. Johnson Space Center
 Chief Information Officer, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
 Chief Information Officer, John F. Kennedy Space Center
 Chief Counsel, John F. Kennedy Space Center
Director, Langley Research Center
 Chief Information Officer, Langley Research Center
Director, George C. Marshal Space Flight Center
 Chief Information Officer, George C. Marshal Space Flight Center
Acting Director, John C. Stennis Space Center
 Chief Information Officer, John C. Stennis Space Center




                                              30
Appendix G

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Director, Acquisition and Sourcing Management Team, General Accounting Office
Professional Staff Member, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             31
                    NASA Assistant Inspector General for Auditing
                                   Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: System Information Technology Security Planning

Report Number:                                                   Report Date:


Circle the appropriate rating for the following statements.

                                                                 Strongl                              Strongl
                                                                    y      Agree   Neutra   Disagre   y         N/A
                                                                  Agree              l         e      Disagre
                                                                                                         e
1.   The report was clear, readable, and logically organized.       5       4        3         2         1      N/A
2.   The report was concise and to the point.                       5       4        3         2         1      N/A
3.   We effectively communicated the audit objectives,              5       4        3         2         1      N/A
     scope, and methodology.
4.   The report contained sufficient information to support         5       4        3         2         1      N/A
     the finding(s) in a balanced and objective manner.


Overall, how would you rate the report?

      Excellent                  Fair
      Very Good                  Poor
      Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.




                                                            32
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

      Congressional Staff                       Media
      NASA Employee                             Public Interest
      Private Citizen                           Other:
      Government:             Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                   No: ______
Name: ____________________________
Telephone: ________________________




                                         33
Major Contributors to the Report

Gregory B. Melson, Program Director, Information Assurance Audits

Ernest L. Willard, Audit Program Manager

James W. Geith, Auditor-in-Charge

Dennis A. Clay, Auditor

Kathy Kirby, Auditor

Patricia C. Reid, Program Assistant

Nancy C. Cipolla, Report Process Manager
